No. 19-292

 

IN THE

Supreme Court of the United States

ROXANNE TORRES,
Petitioner,
Vv.

JANICE MADRID AND RICHARD WILLIAMSON,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF FOR AMICI CURIAE FOURTH
AMENDMENT SCHOLARS IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,938 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 4, 2019.

 

Wilson-Epes Printing Co., Inc.
